,





                                             AUDIT REPORT 


                        DISASTER HOME LOAN SERVICING CENTERS 


                                       AUDIT REPORT NO. 9-15 


                                               August 3, 1999 





 This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
 released to the public or to another agency without permission of the Office of Inspector General.
,

                              U.s. SMALL BUSINESS ADMINISTRATION
                                  OFFICE OF INSPECTOR GENERAL 

                                       Washington, DC 20416 





                                                                             AUDIT
                                                                            REPORT
                                                                  Issue Date: August 3,1999
                                                                  Number: 9-15



To:
                  r/
                  Jane P. Butler, Associate Administrator
                       ~inanJal Assistance

From:             ~Dy~g Assistant Inspector General
                   for Auditing

SUbject:          Audit of Disaster Home Loan Servicing Centers

          Attached is a copy of the subject audit report. The report contains two findings and five
    recommendations concerning collection of past due disaster home loans by servicing centers.

           Three of the five recommendations contained in the draft audit report have been modified
    based on comments in your June 30, 1999 letter and discussions with your staff. As a result of
    the changes reflected in the final report, it is our understanding that you now agree with each
    recommendation.

            The recommendations are subject to review and implementation of corrective action by
    your office in accordance with existing Agency procedures for audit follow-up. Please provide
    your revised management response to the recommendations within 30 days from the date of this
    report using the attached SBA Forms 1824, Recommendation and Action Sheet.

           Any questions or discussions of the issues contained in this report should be directed to
    Garry Duncan at (202) 205-7732.


    Attachment

    cc: Associate Deputy Administrator for Capital Access
                                            AUDIT OF 

                              DISASTER HOME LOAN SERVICING CENTERS 




                                                   TABLE OF CONTENTS 





SUMMARy........................................................................................................................... i 


INTRODUCTION

          A. Background .................. .... ......... .......... .......... ............ ........ ................... ....... ... ... .... 1 


          B. Audit Objectives and Scope ................................................................................... 2 



RESULTS OF AUDIT

Findings and Recommendations

          1. Actions to Collect Payments on Past Due Loans Needed Improvement... ............... 3 

          2. Collection Tools were not Always used to Recover Loan Losses ........................... 8

APPENDICES

          A.   Statistical Sampling Techniques and Results
          B.   Loans with Collection Potential
          C.   Management Comments
          D.   Audit Report Distribution
                                           SUMMARY

        We audited the Small Business Administration's (SBA's) disaster home loan servicing
operations at the four servicing centers located in Birmingham, EI Paso, New York, and Santa
Ana. As of September 30, 1997, SBA's portfolio of disaster home loans at the servicing centers
consisted of 185,417 loans valued at about $3 billion, of which 12,843 loans valued at $179
million were in a past due, delinquent, or in-liquidation status (referred to hereafter as past due
loans). We statistically sampled 432 of these loans valued at $4.8 million to determine whether
SBA followed collection procedures or performed liquidation actions intended to minimize
losses.

        Department of the Treasury guidelines and public policy require that debt collection
procedures be designed to maximize the collection of delinquent debts (minimize losses). In line
with these guidelines and policies, SBA established standard operating procedures to make
maximum use of resources for intensive collection follow-up on delinquent accounts. These
procedures require early and predictable contact after loans become delinquent and liquidation
action to recover from borrowers who can pay, but will not. If followed, these procedures
should minimize SBA's risk ofloss by returning delinquent loans to current status or obtaining
recovery through liquidation actions.

         Collection actions on past due disaster loans were untimely, not done weekly, and
continued beyond recommended time limits. Based on a statistical sample, it is estimated that
SBA may not have followed procedures to minimize its risk of loss for 6,785 loans either by
initiating early and predictable contact or by initiating early liquidation actions. Although
specific losses cannot be identified, collection efforts were not maximized for outstanding loan
balances totaling $79.2 million. Management cited insufficient staffmg as a roadblock to more
effective collection actions. We determined, however, that loan collection guidelines were not
always followed.

        In February 1998, SBA established a goal to contact all delinquent borrowers weekly in
order to improve the timeliness and consistency of collection actions. SBA officials stated that
as a result of staffing increases and the contracting of the servicing function for 30 percent of the
loan portfolio, this goal was met as of February 1999. As of that date, the reported percentage of
past due borrower contacts increased to 100 percent (as opposed to 40 percent for fiscal year
1997) while the currency rate increased by 1.5 percent. Cash collections also increased by about
19 percent from FY 97 to FY 98.

        The audit also showed that disaster home loans were charged off without litigation or
collection agency referrals. Our review of 165 charged off loans between January 1 and
September 30, 1997, disclosed that 28 percent had potential for recovery using litigation tools
such as garnishment, real estate liens, judgments, and/or collection agencies. SBA officials
stated that litigation referrals were not made because servicing center managers did not believe
that the Department of Justice would litigate delinquent loans. The managers also stated that
delinquent loans were not referred to collection agencies due to disputes over payment amounts
or various complaints from borrowers. SBA now sends these loans to the Department of the
Treasury for possible referral to collection agencies. We estimate that $4.8 million charged off
for 928 loans would have been potentially recoverable ifliquidation tools had been used.

        We recommend that the Associate Administrator for Financial Assistance improve past
due loan collection actions, conduct a staffing requirements study, and use available collection
tools to liquidate loans. The Associate Administrator agreed with the recommendations.

        The findings in this report are the conclusions of the OIG's Auditing Division based on
testing of the auditee' s operations. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for follow-up and resolution.




                                                11
•




                                        INTRODUCTION

 A.     BACKGROUND

         In the early to mid-1980s, SBA established servicing centers in Birmingham, El Paso,
 New York, and Santa Ana to service disaster home loans. Servicing functions were then
 transferred from SBA district offices to increase effectiveness and improve the loan currency
 rate. The centers were responsible for:

        •    processing administrative actions (generally requested by borrowers),
        •    making collection efforts for past due/delinquent accounts,
        •    liquidating unsecured loans when collection efforts were unsuccessful, and
        •    transferring secured loans to district offices for liquidation.

         To determine the appropriate collection effort required, SBA classified loans into six
 status categories.

            Current                Payment is current or less than 10 days behind schedule. 

            Past due/delinquent    Payment is between 10 and 60 days behind schedule. 

            Default                Payment is 61 or more days behind schedule. 

            In liquidation         It is necessary to resort to selling collateral or taking other 

                                   enforcement action to obtain payment.
            Deferred               Borrowers have been given permission to suspend making
                                   payments for a specific period of time.
            ChargedojJ             No reasonable expectation that borrower will repay the loan.

         Servicing center collection action starts when loan payments are 10 days late. Loan
 information is then entered into SBA' s Delinquent Loan Collection System so action can be
 initiated to return the loan to current status. After all collection efforts are completed, past due
 loans should be transferred to liquidation. The focus of servicing actions should then be to
 maximize recovery through sale of collateral or other approved actions. After all SBA collection
 actions are completed, the loans are sent to the Department of the Treasury (Treasury) for
 referral to collection agencies, Federal Salary and Administrative Offset, and/or Internal
 Revenue Service Offset.

         Servicing and liquidation procedures are contained in Title 13, Code of Federal
 Regulations, OMB Circular A-129, the U.S. Treasury's Managing Federal Receivables Manual,
 and SBA SOPs 50 52 and 50 50 3. Both the Treasury and SBA procedures indicate that action
 should be taken quickly to resolve delinquencies. In those instances when an account cannot be
 restored to a current status, liquidation actions should maximize fmancial recovery on the loan.




                                                  I

        As of September 30, 1997, SBA had 185,417 disaster home loans located at the four
disaster servicing centers. The status of the loans follows:


                    LOAN STATUS              PERCENTAGE             SUR TOTAL
                Current                           93.00           $2.8 billion
                Delinquent                         5.90           $177 million
                Deferred                            .90           $25 million
                In liquidation                      .08           $2 million
                Total (rounded)                  100.00           $3 billion


B.     AUDIT OBJECTIVES AND SCOPE

        The overall audit objectives were to determine whether SBA followed collection
procedures and used available liquidation tools to minimize loan losses. To accomplish our
objectives, two statistical samples were selected. The first was for 267 of 16,031 past due loans
with outstanding balances of $3.4 and $198.6 million, respectively. Each loan was examined to
ascertain collection actions taken after the next payment due date to September 30, 1997. A
second sample of 165 loans from a total of 3,327 loans with outstanding balances of $1.5 and
$30.6 million, respectively, evaluated actions taken to maximize financial recovery when loans
could not be returned to a current status. Appendix A describes the sampling methodology.

        Loan files, SBA's management information systems, and non-government data were
reviewed. Personnel from the four servicing centers, SBA headquarters, other Federal agencies,
private lenders, and collection agencies were interviewed. Field work was performed between
May 1997 and January 1999. The audit was conducted in accordance with Government
Auditing Standards.




                                                2

                                         RESULTS OF AUDIT

        Collection procedures established to minimize losses on past due disaster home loans
were not always followed by SBA. The procedures included contacting borrowers as soon as
their loan becomes past due with contact continuing each week the loan remains in that status.
Collection efforts should cease after loans are past due for no more than ISO days and liquidation
activity should begin. Some loans were then charged off without using all available collection
tools.

FINDING 1 Actions to Collect Payments on Past Due Loans Needed Improvement

        Collection actions on past due disaster loans were untimely, not done weekly, and
continued beyond recommended time limits. Based on a statistical sample, it is estimated that
SBA could have minimized its losses for 6,785 loans either by initiating contact to return them
to current status or starting liquidation action earlier. Although specific losses cannot be
identified, outstanding loan balances totaling $79.2 million were at an increased financial risk.
SBA management cited insufficient staffing as a roadblock to more effective collection actions.
We determined, however, that loan collection guidelines were not always followed. To improve
the timeliness and consistency of borrower contacts, SBA established a goal during the audit to
consistently contact borrowers of past due loans.

Past due borrowers should be identified and contacted

       After a disaster home loan becomes 10 days past due, a form letter is automatically
generated by the Denver Finance Center (Finance Center) and sent to the borrower. The Finance
Center also generates an automated weekly listing that identifies such loans. The loans are aged
by days past due and distributed to the servicing centers. The servicing center staffs are
responsible for contacting borrowers, either by telephone or letter, on a continuing basis. A
record of all contacts is recorded in SBA's automated chronological record file.

        SBA's SOP 50 52 reiterates U.S. Treasury policy that the primary use of servicing
resources will be for the collection of past due loans at the earliest stages of delinquency. Only
one of the service centers, however, used its resources in this manner. The priorities of two
other centers were to accomplish administrative actions related to real estate and collection
efforts for loans past due for 180 days or more. The priorities of the fourth center were not
determined because the current manager was unaware of how resources had been used in the
past.

Collection actions for borrowers of past due loans could be improved

       Attempts to contact borrowers of past due loans were not made early or weekly. To
evaluate the timeliness of collection efforts, we determined the number of borrower collection
contacts for each sampled loan at intervals of30, 60,120,180, and over 180 days. For audit
purposes, we decided that any verbal or written contact attempt by the servicing or finance



                                                 3

centers would be considered a collection "contact." SBA's automated chronological file was
used to identify the number of attempted contacts for each loan.
a.     Servicing center collection efforts should be made earlier

         Standard Operating Procedure 50 52 requires that collection efforts should be promptly
initiated during the earliest stages of delinquency. The SOP, however, does not define "earliest
stages of delinquency." Also, the U.S. Treasury's Managing Federal Receivables Manual states
that because ability to collect debt decreases with age, Federal agencies are encouraged to
resolve all loan delinquencies as quickly as possible. Both SBA and Treasury guidance provide
that collection contacts should be personal; i.e., telephone calls or non-form letters.

         As shown below, when early contact (within 30 days of a missed loan payment) was
attempted, the majority of collection efforts were made by Finance Center computer-generated
letter instead of personal servicing center actions. Also, most contact attempts occurred after
loan payments were more than 180 days past due. See the following chart.
                             Analysis of Contact Attempts With Borrowers

                     700
                     600

                1
                0
                (J
                     600
                     400
                                                                    III contacts by service cenler
                                                                      personnel
                0 300
                ~
                                                                    o ~puter generaled
                .!                                                    contacts
                E 200
                z" 100
                       0
                           1 to 30 311060   6110   121 to   181 +
                                             120    180
                               Age of Past Due Loan (In days)




h.     Weekly borrower loan collection contacts were needed

        SOP 50 52 states that predictable contact with borrowers is one of the goals of SBA's
collection system. The SOP further states that a weekly listing of all delinquent loans will be
supplied to each service center for use in contacting each borrower. Also, one of the
productivity measures used by SBA management is weekly contact with borrowers. We
concluded, therefore, that predictable contact can be defined as weekly contact.

        For 250 of the 267 loans reviewed, borrower contact was attempted at least once while in
a past due status. Collectively, the 250 loans were in past due status for about 14,000 weeks;
therefore, the number of collection attempts should have equaled an equivalent number of
weeks. Using the SBA automated chronological file, we could only identify about 1,800 weekly




                                                       4

"




contact attempts. The per loan percentage ranged from 0 to 80 percent with an average contact
rate of only 12 percent.

    c.     SBA established a collection goal for past due loans

            During our audit, the Associate Deputy Administrator for Capital Access established a
    goal of consistently contacting borrowers of past due loans on a weekly basis. An attachment to
    the memo showed that as of the memo date (February 9, 1998), the contact goal had not been
    met. Subsequent reports showed significant increases in the contact rate and that the goals had
    been substantially achieved. Program managers claim they were able to achieve the goals by
    increasing staffmg by 22 percent and by contracting the servicing effort for 30 percent of the
    portfolio. The following chart shows the reported positive changes that occurred for significant
    performance categories.

    Category                                     FY97                February 1999      Difference
    Weekly Borrower Contacts                     40%                 99.9%              +59.9%
    Currency Rate of Home Loan Portfolio         92.1 %              93.6%              + 1.5%
    Delinquency Rate of Home Loan Portfolio       4.5%                1.5 %             - 3.0%
    Cash Receipt Collection Level                13.2%               15.7 %             + 2.5 %
    Staffing Level                           .   94                  116                +22
    Home Loan Portfolio Size                     185,417             124,305            - 61,112

           SBA computes the overall percentage of borrower contacts based on information
    received from each of the disaster home loan service centers. This information, obtained from
    Delinquent Loan Collection System inputs, was used to prepare a monthly report for SBA
    management officials.

            We could not verify the accuracy of the reported weekly contact data because prior
    LCA W 27 (Loan Collection Accounting Weekly) reports showing past due loans assigned to
    service centers and the LCAW 31 report showing the performance statistics by service center
    were not retained. Based on limited testing of current data, however, nothing came to our
    attention that would indicate the reported data were inaccurate.

    Earlier transfer of past due loans to liquidation should be accomplished

            Collection actions were continued beyond the time period recommended by the Treasury.
    Appendix 4 of Treasury's Asset Management Manual recommends loans past due for more than
    75 days be transferred to liquidation status. As of September 30, 1997, 124 (46 percent) of the
    loans reviewed were in a past due status for more than 75 days. Ten of these were subsequently
    paid in full or returned to current status and 47 were transferred to liquidation status or charged
    off. Servicing personnel were still attempting to return the remaining 67 loans (54 percent) to
    current status through collection contacts. SBA had not established a time requirement for
    transferring delinquent loans to liquidation status. By continuing collection efforts on older past




                                                    5

•


due loans, servicing center staff had fewer resources to expend on collection efforts on loans that
recently became past due.


Staffing cited as a problem

        SBA managers cited staffing as a major roadblock to more effective servicing. We were
told that the disaster loan servicing workload had grown without a corresponding increase in
staff. Our analysis, as shown in the following chart, confirms that workload and staffing had not
increased proportionately.

                                      Comparison of workload to staffing

                                200
                        "c
                        ~,. 150
                        'Og     100                                        IGlWOrldoad I
                                                                           • staff
                        .8'0,   50
                        e"'"
                        "c       0
                                      1991 1992 1993 1994 1995 1996 1997
                                                  flacal years




        While it is true that workload increased in greater proportion than staffing, the audit
disclosed that prior staffing studies were of questionable use in determining appropriate staffing
levels. The SBA conducted three such studies between June 1990 and November 1996. These
studies contained one or more of the following deficiencies:

       • 	 projected servicing center workload not considered,
       • 	 the composition of the workload (secured versus unsecured loans) not considered,
           and/or
       • 	 time and motion studies not performed (one report recognized that a comprehensive
           analysis would require such a study).

       Any future staffmg studies to determine home loan service center requirements should
eliminate the above mentioned deficiencies. Also, changes in recent laws and directives,
including the following, should be considered:

       Congressional initiative        Public Law 104-208 directs SBA to conduct a
       demonstration program for outsourcing the servicing of 30 percent of the disaster home
       loan portfolio. To this end, a contract was awarded in April 1998. Although this
       requirement did not reduce the number of servicing personnel (due to possible
       understaffing), it did reduce the number ofloans serviced by each servicing center.



                                                    6

       FY 1998 Appropriations Act requirements The FY 1998 Appropriations Act mandated
       SSA to sell its portfolio of defaulted guaranteed and direct loans beginning in FY 1998.
       The sale of the disaster loan portfolio is scheduled to continue through year-end FY2000.
       We believe the size of the portfolio will be significantly reduced when this action has
       been fully implemented.

       Debt Collection Improvement Act ofl996 The Act requires referral to the Treasury of
       debt delinquent for more than 180 days and not in litigation or liquidation. As previously
       stated, many past due disaster home loans did not receive adequate collection action until
       they were past due for 180 days or more. Therefore, delinquent loans not serviced under
       contract may be eligible for transfer to the Treasury. Adherence to this Act will also
       decrease the size of the home loan portfolio. In FY 98, SSA began forwarding
       unsecured disaster home loans that were 180 days delinquent to Treasury for collection.

       Recommendations

       We recommend that the Associate Administrator for Financial Assistance take the
following actions relative to disaster home loans:

       lA. 	 Incorporate into SOP 50 53 the following procedures:

               • 	 contact borrowers by telephone as soon as their loan becomes past due, and
               • 	 contact all past due borrowers weekly.

       lB. 	   Discontinue routine collection efforts (telephone calls and letters) and transfer 

               loans to liquidation status after 120 to 150 days in a past due status. 


       IC.     Determine service center staffing requirements by conducting a study considering 

               factors such as 


               •	   projected and historical workload,
               •	   workload composition,
               •	   time and motion analysis, and
               •	   changes in recent laws and directives.

Management Response

        The Associate Administrator for Financial Assistance agreed with the recommendations
and stated that:

    • 	 Recommendation IA. has been implemented with the change to be included in the next 

        SOP update. 





                                                 7


                                                                                                     \
    • 	 Routine collection actions will be discontinued after a loan is in past due status from 120
        to 150 days as suggested in recommendation IB. Depending on the workout status, the
        loan will be transferred to liquidation.
    • 	 Implementation of recommendation I C. will be delayed until funding is received and
        factors affecting loan administration have stabilized. Funding for the study will be
        included in an upcoming budget request.

Evaluation of Management's Comments

      Based on discussions with personnel in the Office of Financial Assistance, draft report
recommendations IB. and lC. were modified. The Associate Administrator agreed with
recommendation IA. and now verbally agrees with revised recommendations IB. and lC.


FINDING 2 Collection Tools were not Always used to Recover Loan Losses

        Disaster home loans were routinely charged off without litigation referral. Our review of
 165 loans charged offbetween January 1 and September 30,1997, disclosed that 28 percent had
potential for recovery using litigation collection tools such as real estate liens, garnishments,
judgments, or collection agencies. Litigation referrals were not made because servicing center
managers did not believe that the Department of Justice (Justice) would litigate delinquent loans.
In addition, management officials claimed that collection agency referrals were not made due to
disputes over payment amounts or various complaints from borrowers. We estimate that $4.8
million charged off for 928 loans was potentially recoverable if all available collection tools had
been employed.

Recovery opportunities for charged otT loans were lost

         SOP 50 52 required service center personnel to review each loan for the borrower's
ability to pay. If a determination was made that the borrower had the ability but was unwilling
to pay, step-by-step instructions were provided on how to package and send the loans to the U.S.
Attorney for litigation action. The litigation action to be taken by the U.S. Attorney includes
garnishment of wages, and judgments against real and personal property. Also, SOP 50 50 3
required an identification of those assets against which a judgment might be enforceable and an
estimate of potential recovery. The Debt Collection Act of 1996 further provided Federal
agencies the authority to use collection tools for delinquent debt. The Act addressed existing
tools such as judgments against borrowers and liens on borrower assets and added a new tool,
garnishment of wages. Also, OMB Circular A-129 supports the authority of agencies to litigate
against borrowers.

       Loan officers classified borrowers for 91 (55 percent) past due loans in our sample as
able but unwilling to pay based solely on their knowledge of the loans. Rather than pursuing the
borrowers for repayment, the loan was charged offusing SBA Form 327 that contained the
statement, "The loan is uncollectible and collection costs, administrative or litigation, would



                                                8

exceed any estimated recovery." We found no estimate of potential recovery to support this
statement nor could SBA personnel provide documentation that the estimates were made. SBA
considered loan officers experienced enough to selectively judge whether the loan warranted
further collection action.

       Of the 91 loans classified as unwilling to repay, we identified 46 (51 percent) with
charged off balances totaling $239,829 that had potential for recovery (see Appendix B).
Recovery could be accomplished using collection tools such as real estate liens, garnishment of
borrower wages, or miscellaneous litigation action. The following paragraphs discuss how these
tools might have been used.

       Real Estate Liens We identified 15 loans with charged off balances of $117,636 for
       borrowers who had attachable real property assets. The disaster application and a
       commercial database or mortgagor interview were used to verify borrower-owned real
       property when the loans were charged off as shown by the following examples.

              • 	 A loan (sample number 76) disbursed r:        *'      'J for $20,000 was
                  charged off in August 1997 with an outstanding balance of $18,762. The loan
                  was collateralized by personal property consisting primarily of household
                  goods. By using a commercial database, we found that the borrowers had
                  purchased a single-family residence in 1996. The property, which was
                  assessed for $125,000, was still owned by the borrowers at the time of charge
                  off.

              • 	 Another loan (sample number 125) disbursed in [      "* ")for $20,000
                  was charged off in February 1997 with an outstanding balance of$19,716.
                  The loan was collateralized by personal property consisting of household
                  goods. By using a commercial database, we found that the borrowers had
                  purchased a single-family residence in January 1993. The property, which
                  was assessed for $72,548, was still owned by the borrowers at the time of
                  charge off.

       Garnishment Actions Garnishment of borrower wages may have been possible for 29
       loans with total outstanding balances of $102,317. Our review of disaster loan
       applications or credit bureau reports identified borrower employment. The following
       examples indicate that garnishment could have been used as a collection tool.

              • 	 A loan (sample number 7) was disbursed in I: * : 1 for $10,000. The
                  loan balance of $7,724 was charged off in April 1997. The employer for one
                  of the two borrowers confirmed employment for the last 17 years.

              • 	 A loan (sample number 104) was disbursed in t _    *  J for $10,000. The
                  loan balance of $8,533 was charged off in March 1997. The employer for one
                  of the two borrowers confirmed employment for the last 10 years.



                                               9

       Miscellaneous Litigation Actions Other litigation action may have been possible for
       two loans with charged off balances totaling $19,875. The borrowers had other assets
       that SBA could pursue (corporate stock) or held corporate positions indicating potential
       income was available for loan repayment.

               • 	 A loan (sample number 60) disbursed inC          +.      ':l for $10,000, was
                   charged off in August 1997 with an outstanding balance of $10,141. The loan
                   application and confirmation by the borrowers showed Social Security
                   payments as the only source of income. Real estate owned by the borrowers
                   at the time of the disaster application was subsequently transferred to another
                   party. A commercial database, however, disclosed that each of the borrowers
                   has held or currently holds officer positions in one or more for-profit
                   corporations located in Mississippi and Virginia.

               • 	 Another loan (sample number 109) disbursed for $10,000 c:       1(   :J; was
                   charged off in June 1997 for $9,734. A commercial database showed the
                   borrowers were operating three for-profit corporations from the same address
                   as the residence listed in the disaster loan application. A Dun & Bradstreet
                   credit report verified the existence of one of the businesses.

        Also, loan officers classified borrowers for nine additional loans as unable to repay their
debt without support for this classification. Collection action was not pursued against the estates
for loans to six deceased borrowers or for three borrowers whose real property foreclosures
resulted in deficiency judgments. Collection tools, therefore, may have been appropriately
applied to some or all of these loans.

Litigation referra1s to Department of Justice

        SBA officials stated that loans were not referred to Justice because litigation would not
be pursued for SBA's small dollar unsecured loans. We noted that Justice has had a $600
minimum loan limit since 1993. Only 10 loans in our sample, however, had a balance of $600
or less. The Justice Director for Debt Collection Management stated that SBA's beliefs might be
based on experiences with referrals made prior to the establishment of the private counsel
program in the early 1990s. The Director believes that referral to private counsel is the most
cost beneficial means of collecting cases because SBA would pay only for those accounts for
which collections are received.

Past due loan referrals to private collection agencies

        No past due loans were referred by the servicing centers to private collection agencies
during FY 96 and 97. For the 6 prior years, $1.7 billion in disbursed loans were referred to
collection agencies that generated recoveries of about $7.2 million. Disaster officials stated that
referrals were no longer made because

       • 	 SBA believed borrower payments for some loans transferred to collection agencies
           were due to SBA collection efforts, not the collection agency,
                                                                 *'   1'01'"   fOx. G.
                                                10
       • 	 loan files weI:e not returned to SBA in a timely manner, and
       • 	 complaints were received from borrowers and SBA field offices concerning the
           collection agencies.

        Officials at the three private collection agencies under contract during our audit stated
that they were aware of some problems but nothing that would warrant SBA's stopping loan
referrals.

        The Debt Collection Act of 1996 authorizes Treasury to award contracts to collect
delinquent debt. As a result, SBA will no longer send delinquent loans directly to private
collection agencies, but will send the accounts to Treasury. Treasury will determine if the use of
a private collection contractor is warranted Treasury's Managing Federal Receivables Manual,
Appendix 4, recommends that delinquent unsecured consumer debt be referred to private
collection agencies around the 75th day of delinquency. Delays in sending loans to Treasury
could reduce the account's collectibility.

Recommendation

        We recommend the Associate Administrator for Financial Assistance take the following
actions:

       2A. 	   Where appropriate, refer unsecured loans to the Department of Justice for
               litigation against the borrowers and guarantors.

       28. 	   Where appropriate, refer secured loans to the Department of Justice for litigation
               against the borrowers and guarantors when collateral is liquidated and full
               recovery is not achieved

Management's Response

     The Associate Administrator verbally agreed with the recommendations and stated that loans
in liquidation status will be transferred to district offices or the loan liquidation center with a
recommendation for transfer to the Department of Justice, if appropriate.

Evaluation of Management's Response

    Based on discussions with personnel in the Office of Financial Assistance, draft report
recommendations 2A. and 2B. were modified. The Associate Administrator now verbally agrees
with the revised recommendations.




                                                 11 

,   •
                                                                                                                  ·

                                                                                                                  ·




                                                                                            Appendix A
                                                                                                                  ·




                                 Statistical Sampling Techniques and Results




               We reviewed data from a statistical sample of past due loans and a statistical sample of
        charged off loans to develop our estimates of population values. These estimates have
        measurable precision or sampling errors. The precision is a measure of the expected difference
        between the values found in the samples and the values of the same characteristic that would
        have been found if 100 percent reviews had been made using the same techniques.

                Sampling precision is indicated by ranges or confidence intervals that have upper and
         ower limits and a certain level of confidence. Calculating at a 90-percent confidence level
        means the chances are 9 out of 10 that if we reviewed all of the past due and charged off loans in
        the populations, the resulting values would be between the lower and upper limits, with the
        population mid-point estimates being the most likely amounts of past due loans needing
        improved collection efforts and charged off loans that had potential for additional recovery.

                The following population estimates and lower and upper limits were calculated using the
        U.S. General Accounting Office 'SRO-STATS' program at a 90-percent confidence level. We
        used the population mid-point estimates as the statistical projections for this report. These
        projections are applicable solely to the past due and charged off loans in the period of our
        review.
                                                                                                                      I
                                                                                                                      !
                                   Point                                        Point
                                 Estimate        Lower       Upper             Estimate      Lower        Upper
                                  Amount          Limit       Limit            Number        Limit        Limit
          Past due loans        $79,210,910    $64,372,140 $96,265,520          6,785        5,957        7,613
          Charged off loans     $ 4,817,661    $ 3,147,329 $ 6,788,654           928          730         1,126




                                                                                                                      I
,   .
                                                                                               Appendix B

                              LOANS WITH COLLECTION POTENTIAL

         NO.    SAMPLE        LOAN              CURRENT    CHARGE OFF        WAGE      REAL        OTHER
        COUNT
         1
         2
                  NO.
                   123
                    28    r
                              NUMBER
                                      ., r-r
                                      .
                                           -i-­
                                                 OFFICE
                                                      ..
                                                       1
                                                            AMOUNT
                                                               $ 2,798.84
                                                                   592.71
                                                                            GARNISH
                                                                                X
                                                                                X
                                                                                      ESTATE      SOURCES


         3         117                                           4,171.30       X
         4           6
                                            -                      934.19       X
                                          -,­
         5            8                                            820.49       X
                                          - '­
         6          51                                           4,744.07               X
         7          52
                                          -­                     5,487.58               X
         8          60
                                          -­                    10,140.88                            X
         9          61
                                          --                     6,962.86       X
        10          62
                                            -                    1,700.73               X
                    76
                                           -
        11                                                      18,762.18               X
                    79
                                           -
        12                                                       3,992.39       X
        13          99
                                          --                     2,720.37       X
        14         101
                                          -­                     1,725.35               X
        15         115
                                          -­                       903.16               X
        16         116
                                           -                     3,191.71       X
        17         125
                                          -­                   20,016.28                X
        18         136
                               ..,f       -­       ~             7,157.39               X
        19         150
                                          -­                     1,893.92               X
                                          -­
        20
        21
                   154
                   159
                                          -­                     2,061.18
                                                                 9,976.60
                                                                                X
                                                                                X
        22         160
                                          -­                     2,777.23               X
        23          24
                                          --                     9,837.49       X
        24           7
                                          --                     7,274.01       X
        25          16
                                          -­                     4,236.61       X
                                          --
        26
        27
                    17
                    21                    -- r­-                 1,042.55
                                                                 4,588.47
                                                                                X
                                                                                X
        28          48                                             394.46   .
                                                                                X
                                          - r­
        29          55                                             343.99       X
        30          59
                                          -r­                    6,957.45       X
        31          73
                                          - r­                   4,887.46       X
                                          - r­
        32          75                                           1,962.50       X
        33          80
                                          -r­                    1,529.97               X
        34          89
                                          -r­                    6,100.48               X
        35          91
                                          -r­                    2,109.30       X
        36          98
                                          - r­                   4,028.99       X
        37         104
                                          - f­                   8,532.83       X
        38         109
                                          - f­                   9,734.40                            X
        39         119
                                          - r­                     722.77               X
        40         120
                                          -I ­                   2,024.84       X
        41         121
                                          -I ­                   1,926.69       X
        42         132
                                          -I­                    2,910.75       X
        43         158
                                          - I­                     665.53       X
        44         134
                                          - r­                     370.13       X
        45          38
                                          - r­                  42,901.78               X
        46          58
                                          -I ­                   1,213.75               X
    TOTALS                l           .J- '-L          J     $239,828.61        29      15            2
"
                                                                                           AppendixC
                               U.S. 	S MALL   BUSINESS ADMINISTRATION
                                        WASHINGTON. D.C. 20416




      DATE:        June 30, 1999
         TO:       Garry L. Duncan
                   Acting Assistant Inspector General
                   For Auditing
      FROM:        Jane P~lsgrove ~~tler~ ~ &a~
                   AssocIate Admmlstr~            - - -2)--­
                   For Financial Assistance
    SUBJECT:       Draft Audit Report - Audit of Disaster Home loan Servicing Centers
         The Office of Financial Assistance (OF A) has reviewed the subject draft audit report on
     Disaster home Loan Servicing Centers. We appreciate the opportunity to comment on this audit
     report in draft form.

         OFA does not dispute the facts of the audit. The audit indicates that the Home Loan Centers
     may have missed some opportunities in collection efforts during the early stages of the period
     subject to the audit. The report indicates, correctly, that during this period certain centers
     subordinated collection activity to other important Agency priorities. These priorities included
     providing credit assistance to thousands of disaster victims needing to restructure home financing
     after the Northridge Earthquake, the most devastating disaster in recent U.S. history. Counseling
     assistance was also given to thousands of borrowers new to SBA loan accounting, servicing and
     administrative procedures. And, collection forbearance was provided to thousands of new
     borrowers who communicated their legitimate needs for deferments and reductions in payments·
     after suffering severe financial distress caused by disaster. The priorities used at OFA centers
     were developed by center managers after thorough analysis of the needs of disaster victims, the
     restraints of extremely limited resources and the impacts of exceedingly heavy workload. They
     were clearly communicated to and approved by OFA.

         I am pleased that the audit report confirms the very substantial improvements in Home Loan
     Center operations and collection results that have occurred since the audit was initiated in 1997_
     The audit confirms the outstanding progress that OF A has made to minimize the effect of staffing
     constraints through management initiative and outsourcing activity.

         The audit confirms that SBA' s home loan portfolio in centers grew from approximately
     100,000 loans in the fall of 1993 to over 185,000 home loans in the fall of 1997. It also confirms
     the significant fact that Home Loan Center staffing was virtually unchanged during that period.
     Although delinquencies in the portfolio grew dramatically, critical loan administration services
     were consistently provided to disaster victims. During the same period, as confirmed by the
     report, OFA established focused collection goals including weekly collection contacts and early
     liquidation action. We achieved these goals, in part, by installing sophisticated, national
     automated calling services. Finally, to achieve these goals, we were able to make our staffing
     more congruent with our workload by contracting for private sector administration of 30% of the
     portfolio. The private sector contact was mandated by Congress and relieved our overworked
     staff of approximately 65,000 loans to service_ As a result. dramatic improvements in early
     contact, collections and currency have been made - also as reported by the draft audit report.

         OFA comments on the Findings and Recommendations of the Report are as follows:
,	   "



             Finding 1. "Actions to Collect Payments on Past Due Loans Needed Improvement".
          We concur and have made appropriate improvements.

             Recommendations:

             lAo Incorporate into SOP 50-53 the following procedures:

             • 	 Contact borrowers by telephone as soon as their loan becomes past due and

             • 	 Contact all past due borrowers weekly.

              Response: We concur. This recommendation has been implemented. A written change will
          be included at the next SOP update.



             lB. Discontinue collection efforts and transfer loans to liquidation status after 75 days
             in a past due status.

             Response: We concur in part. Borrowers who clearly can pay but will not should be
             transferred. However, immediately transferring all cases to liquidation after 75 days is not
             appropriate.

                 I) 	 Immediately following a disaster HLCs are routinely overwhelmed by large numbers
                      of new loans many of which become delinquent at virtually the same time. Time is
                      needed to contact borrowers to preclude wasteful administration and loan transfer
                      costs and to enable cooperative borrowers to make up delinquent payments.

                 2) 	 Districts, and the LLC in California, do not have the resources to absorb large
                      numbers of newly delinquent transfers over a short period following a disaster.

                 3) 	 Home disaster loans frequently are made to disaster borrowers who have limited
                      experience with credit. Educating many borrowers regarding repayment practices is
                      more time consuming than conventional consumer loans.

                4) 	 Borrowers have experienced both the disaster and the traumatic effects that disaster
                     victims must deal with including diminished financial capacity. SBA's loan making
                     and servicing programs encourage maximum flexibility in collections. Early
                     liquidation of most home loans is inappropriate and not consistent with disaster loan
                     making policy considering the circumstances in which they are made.

                 5) 	 Center experience indicates that 75% or more of accounts 60-90 days delinquent
                      become current before further delinquency. Transferring and shipping all cases to
                      liquidation locations at 75 days would result in massive transfers and mailing of files
                      and would separate accounts from collectors familiar with the cases.

             Ie. Determine service center staffing requirements by conducting a study considering
             factors such as:

             • 	 Projected and historical workload,




                                                          2
  '. 	   "I.




               • 	 Workload composition,

               • 	 Time and motion analysis, and

               • 	 Changes in recent laws and directives.

               Response: We concur. But, given current buc!get constraints, we are unable to authorize the
               recommended study at this time. When funding becomes available and workload amounts,
               composition and other factors affecting loan administration have stabilized, we will pursue
               implementation of this recommendation.

               Finding 2. Collection Tools were not Always used to Recover Loan Losses.

               Response: We concur. However, analysis is required in the choice of collection tool to
               assure collection activity is cost effective. The use of collection tools results from the credit
               judgement and experience of our center staff as well as the success they have had with
               particular collection tools. Wage garnishment will soon be available and will prove to be a
               significant collection tool for unsecured or undersecured small dollar loans. More
               experienced utilization of the "Auto Dial" phone collection system has proven a highly
               effective tool in accelerating collection receipts and keeping borrowers from drifting too far
               into delinquent status. Another effective collection tool implemented since the audit, is the
               referral for Treasury Offset at 180 days, unless coded "Do Not Refer". Additionally, monthly
               transfers of loans charged off are made to Treasury for servicing.

               Recommendations:

               2A. Refer unsecured loans to the Department of Justice for litigation against the
               borrowers and guarantors.

               2B. Refer secured loans to the Department of Justice for litigation against tbe
               borrowers and guarantors wben collateral is liquidated and full recovery is not
               acbieved.

               Response: We concur in part. It is OF A policy to refer all appropriate cases to District
               Offices and the Santa Ana Loan Liquidation Center for possible referral to Offices of the U.S.
               Attorney.

               I. 	 OF A will review Home Loan Center charge off activity, during the first quarter of FY
                    2000, to assure that appropriate cases are being referred to District Offices or the Santa
                    Ana Loan Liquidation Center for subsequent possible referral to U.S. Attorney Offices.

               2. 	 It is important to note additional issues related to recommendations 2A and 28.

                       a. 	 Home Loan Center decisions to refer cases are strongly influenced by feedback
                            from District Offices (and the LLC) regarding District Office credit policies and
                            the effectiveness of litigating small loans through the local U.S. Attorney. Field
                            experience indicates that referral to the U.S. Attorney is frequently not effective
                            for small loans at U.S. Attorney offices in large cities. Many cases cannot be
                            worked aggressively due to U.S. Attorney backlogs. Litigation, when
                            accomplished, frequently results in arrangements that are insufficient to recover




                                                            3




r- .                                                                                                               I
... 	   '. .
                   SBA and U.S. Attorney administrative and accounting costs. Further, referrals to
                   private attorneys by the U.S. Attorney frequently have been pending for
                   unacceptably long periods without significant collection results. Finally, working
                   relationships with some U.S. Attorney offices could be jeopardized by referral of
                   high volumes of small loans. U.S. Attorney focuses on larger, more important
                   SBA disaster and regular loan litigation could be jeopardized.

               b. 	 As a result of the Northridge Earthquake, a large percentage of SBA's real estate
                    secured home loans are secured by deeds of trust on California real estate. Non­
                    judicial foreclosure action by SBA on these loans precludes further collection
                    through litigation due to the state's anti-deficiency statutes. Alternatively,judicial
                    foreclosure can be considered, but its availability must be weighed against the
                    time it takes to conclude a judicial foreclosure action in that state (approximately
                    two years, if uncontested; three, if contested) and the debtor's right to redeem the
                    property for up to one year.

               c. 	 Wage garnishment though litigation can be a burdensome collection alternative.
                    It is a time-consuming procedure that requires substantial documentation and nets
                    few returns. In many jurisdictions, to obtain wage garnishment, SBA must file a
                    lawsuit and enforce the judgment, and then conduct a renewal procedure several
                    times during the course of the garnishment. And, if the debtor changes
                    employment, the entire process has to be repeated.

                   The Debt Collection Improvement Act of 1996 (DCIA) offers a non-litigation
                   alternative to wage garnishment. We understand that the Treasury Department is
                   in the process of implementing it as part of its Treasury Offset Program. OFA .
                   supports developing regulations to allow the Agency to implement its own
                   administrative wage garnishment program, based on the DCIA. We look forward
                   to the availability of administrative wage garnishment as an alternative to wage
                   garnishment through litigation.

               d. 	 As noted in the audit, the Debt Collection Improvement Act of 1996 requires
                    referral of delinquent debt (over 180 days) to the U.S. Treasury. The Debt
                    Collection Act provided for substantial new penalties for delinquent debtors.
                    Accordingly, SBA is transferring all appropriate charged off accounts to the U.S.
                    Treasury for further collection activity. Therefore, although accounts may be
                    charged off, increasingly effective collection activity continues. In addition, non
                    charged off accounts over 180 days delinquent will be referred to Treasury for
                    offset which can occur while SBA is still working the accounts.

               e. 	 Recent changes in liquidation processes encourage referral of cases to the U.S.
                    Attorney for litigation where it is appropriate. Paragraph 8 of Chapter 18 in SOP
                    50-51-2, effective December I, 1997, allows for loans to be removed from
                    liquidation status and placed into a litigation-only status - if the only available
                    means of collection is through legal action. Since the Agency's present PMQD
                    tracking system doesn't have a loan status category identifiable as litigation-only
                    (the current system identifies loan as being in approval, regular servicing,
                    liquidation, or charge off status), many offices have adopted the policy of placing
                    such loans in charge off status and coding them under 37 (litigation - do not
                    refer). Such loans are then placed in litigation status immediately after charge off,



                                                    4

,   '   . .,
                               and then become the primary responsibility of the field counsel. Many of these
                               loans are then referred to the U.S. Attorney for collection-based litigation. This
                               policy allows the Center to better focus on accounts requiring non-litigation
                               collection activity while U.S. Attorney efforts to obtain judgments and judgment
                               liens are proceeding. This also means that some loans that are designated as
                               charged off may be in litigation status for collection-based litigation (loans coded
                               37). Further, the Lexis-Nexis program, newly available in FY 99 via the Office of
                               General Counsel, has increased SBA asset search capabilities substantially at the
                               field office level.

                    Again, thank you for the opportunity to comment on your "Draft Audit Report - Audit of
               Disaster Home Loan Servicing Centers". We appreciate your input, but must note that the
               DHLSCs have made great strides towards maximizing collection activities, since the initial period
               of the audit, during the past several years.




                                                              5

to   ,.".




                                                                                                                                   Appendix D

                                                   OFFICE OF INSPECTOR GENERAL

                                                      AUDIT REPORT DISTRIBUTION

            Recipient                                                                                                    Number of Copies

            Administrator ............................................................................................................ 1 


            Deputy Administrator ............................................................................................... 1 


            General Counsel ..................................._....................................................................2 


            Associate Administrator for
             Field Operations ...................................................................................................... 1 


            Associate Administrator for
             Financial Assistance ................................................................................................. 1 


            Deputy Associate Administrator for
             Financial Assistance ................................................................................................. 1 


            Associate Deputy Administrator for
             Management & AdministratioD ................_............................................................ 1 


            Financial Administrative Staff
              Attention: Jeff' Brown .............................................................................................. 1 


            General Accounting Office ........................................................................................ 1 





                                                                                                                                                \
